                                   SOCIAL SECURITY
MEMORANDUM
Date:   September 23, 2003                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Summary of Single Audit Oversight Activities May 2002 through April 2003
        (A-07-03-13059)


        The attached final Management Advisory Report presents a summary of internal control
        weaknesses at State Disability Determination Services reported in State single audits
        and identified during our May 2002 through April 2003 single audit oversight activities.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   SUMMARY OF SINGLE AUDIT
     OVERSIGHT ACTIVITIES
  MAY 2002 THROUGH APRIL 2003

   September 2003   A-07-03-13059




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to summarize categories of internal control weaknesses at State
Disability Determination Services (DDS) reported in State single audits and identified
during our May 2002 through April 2003 single audit oversight activities.

BACKGROUND
In accordance with Federal regulations, the DDS in each State or other responsible
jurisdiction performs disability determinations under the Disability Insurance and
Supplemental Security Income programs. In carrying out this function, the DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence is
available to support its determinations. The Social Security Administration (SSA)
reimburses the DDS for 100 percent of allowable expenditures. There are 54 DDSs
located in the 50 States, the District of Columbia, Puerto Rico, Guam, and the
Virgin Islands. All DDSs, except the federally administered Virgin Islands DDS, are
subject to audit under the Single Audit Act Amendments of 1996.

RESULTS OF REVIEW
We reviewed 50 single audits covering State fiscal year (SFY) operations at 49 DDSs
(2 SFY 2000 single audits, and 48 SFY 2001 single audits). We compiled and
categorized the audit findings as direct or crosscutting. Direct findings are those
specifically identified to the DDS. Crosscutting findings impact more than one Federal
program; however, they may not be identified to any one Federal program or may not
be identified to all Federal programs. Our review disclosed common direct and
crosscutting findings in the categories of cash management, equipment and real
property management, and allowable costs. All the findings relate to DDS’
noncompliance with Federal requirements because of internal control weaknesses. Of
the 50 single audits, 14 reported direct findings and 39 reported crosscutting findings
(see Appendix B).

Our review of the 14 single audits with direct findings disclosed:

•      non-adherence to Cash Management Improvement Act (CMIA) agreements,
•      weaknesses in equipment inventory,
•      costs that were not properly authorized and documented, and
•      improper accounting and reporting of costs.




Summary of Single Audit Oversight Activities (A-07-03-13059)                              i
A comparison of the Office of the Inspector General’s (OIG) administrative cost audits to
the single audits of the Alabama, Kansas, Puerto Rico, and California DDSs disclosed
significant differences. OIG’s administrative cost audits reported findings in the cash
management, equipment and real property management, reporting, and allowable cost
categories (see Appendix E). The single audits for the Alabama, Kansas, Puerto Rico,
and California DDSs did not report these findings. We present this comparison for
informational purposes only. We will report our comparison to the Department of Health
and Human Services, the Federal agency responsible for oversight of the
aforementioned States’ single audits, in a separate management letter for any action it
deems appropriate.

CONCLUSIONS AND RECOMMENDATIONS
Our three recommendations were presented to SSA in our prior single audit summary
report. Therefore, SSA should not consider these new recommendations for its audit
recommendation tracking system. We do, however, reaffirm our position that SSA
should continue to take corrective action by being proactive in providing internal control
guidance to DDSs. To do so, SSA should provide the following instructions to DDSs.

•   Adhere to the terms of the CMIA agreement.

•   Maintain complete and accurate equipment inventory records and perform periodic
    physical inventories.

•   Ensure that costs charged to SSA benefit its programs and are properly authorized
    and documented.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
corrective actions were taken. SSA also provided technical comments which we
addressed as appropriate. See Appendix F for the text of SSA’s comments.




Summary of Single Audit Oversight Activities (A-07-03-13059)                             ii
                                                           Table of Contents
                                                                                                                      Page


INTRODUCTION...........................................................................................................1

RESULTS OF REVIEW ................................................................................................2

    Cash Management...................................................................................................2

    Equipment and Real Property Management ............................................................3

    Allowable Costs .......................................................................................................4

    Comparison of Single Audit and OIG Findings ........................................................6

              Alabama DDS ...............................................................................................7

              Kansas DDS..................................................................................................7

              Puerto Rico DDS...........................................................................................7

              California DDS ..............................................................................................7

CONCLUSIONS AND RECOMMENDATIONS.............................................................8

APPENDICES

APPENDIX A – Background, Scope and Methodology

APPENDIX B – Summary of Single Audit Findings

APPENDIX C – Direct Findings Reported in 14 Single Audits

APPENDIX D – Crosscutting Findings Reported in 39 Single Audits

APPENDIX E – Findings Identified during the Same Time Frame as the
             Single Audits Reviewed

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgements




Summary of Single Audit Oversight Activities (A-07-03-13059)
                                                               Acronyms
CFR                   Code of Federal Regulations
CE                    Consultative Examination
CMIA                  Cash Management Improvement Act
DDS                   Disability Determination Services
DHS                   Department of Human Services
DI                    Disability Insurance
DoE                   Department of Education
DoF                   Department of the Family
DoL                   Department of Labor
DSS                   Department of Social Services
FY                    Fiscal Year
MER                   Medical Evidence of Record
OFM                   Office of Financial Management
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
OTDA                  Office of Temporary and Disability Assistance
POMS                  Program Operations Manual System
SFY                   State Fiscal Year
SSA                   Social Security Administration
SSA-4513              State Agency Report of Obligations
SSA-4514              Time Report of Personnel Services
SSI                   Supplemental Security Income




Summary of Single Audit Oversight Activities (A-07-03-13059)
                                                                        Introduction
OBJECTIVE

Our objective was to summarize categories of internal control weaknesses at State
Disability Determination Services (DDS) reported in State single audits and identified
during our single audit oversight activities. To accomplish our objective, we reviewed
50 single audits covering 49 DDSs and categorized findings that were identified as
directly affecting DDS operations and crosscutting findings that potentially affect DDS
operations. Of the 50 single audits, 14 reported direct findings and 39 reported
crosscutting findings. Appendix B lists the 50 single audits reviewed and identifies
those with direct and/or crosscutting findings.

                                                     Findings
                           Direct     Crosscutting       Direct and Crosscutting   None




BACKGROUND
In accordance with Federal regulations,1 the DDS in each State or other responsible
jurisdiction, performs disability determinations under the Disability Insurance and
Supplemental Security Income programs. In carrying out this function, the DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations.2 The Social Security Administration (SSA)
reimburses the DDS for 100 percent of allowable expenditures. There are 54 DDSs
located in the 50 States, the District of Columbia, Puerto Rico, Guam, and the
Virgin Islands. All DDSs, except the federally administered Virgin Islands DDS, are
subject to audit under the Single Audit Act Amendments of 1996. Detailed information
on the background, scope, and methodology is included in Appendix A.

1
    20 Code of Federal Regulations (CFR) §§ 404.1601 et seq. and 416.1001 et seq.
2
    20 CFR §§ 404.1614 and 416.1014.


Summary of Single Audit Oversight Activities (A-07-03-13059)                              1
                                            Results of Review
Our analysis of the findings in 50 single audit reports disclosed direct and crosscutting
findings in the cash management, equipment and real property management, and
allowable costs categories. All the findings relate to DDS’ noncompliance with Federal
requirements because of a lack of adequate internal controls. Appendix C summarizes
the 14 single audits with direct findings by DDS. Appendix D summarizes the 39 single
audits with crosscutting findings by DDS.

A comparison of results of the Office of the Inspector General (OIG) administrative cost
audit results to the results of the single audits on the Alabama, Kansas, Puerto Rico,
and California DDSs disclosed significant differences. Administrative costs audits
reported findings in the cash management, equipment and real property management,
reporting, and allowable cost categories (see Appendix E). The single audits for
Alabama, Kansas, Puerto Rico, and California did not report these findings. We present
this comparison for informational purposes only. We will report our comparison to the
cognizant Federal agency, the Department of Health and Human Services, in a
separate management letter for any action it deems appropriate.

CASH MANAGEMENT
The Congress enacted the Cash Management Improvement Act of 19903 (CMIA) to
ensure efficiency, effectiveness, and equity in transferring funds between the States and
the Federal Government. The CMIA requires the Government to enter into an
agreement with States covering applicable Federal programs and to establish
procedures and requirements for transferring Federal funds.4

The CMIA requires the States to minimize the time between the receipt and
disbursement of Federal funds and generally allows the Federal Government to charge
interest when a State receives Federal funds in advance of disbursements.5 The CMIA
also generally allows the States to charge interest when State funds are paid out for
Federal programs before Federal funds are made available.6 The States are supposed
to calculate Federal and State interest liabilities for each applicable program7 and report
liabilities to the Federal Government on the Annual Report to the United States
Department of the Treasury.8

3
    Pub. Law No. 101-453.
4
    31 CFR § 205.9.
5
    31 CFR §§ 205.11 and 205.15.
6
    31 CFR § 205.14.
7
    31 CFR § 205.19.
8
    31 CFR § 205.26.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                2
Without cash management controls, States cannot identify and assess allowable cash
needs. Accordingly, DDSs may draw cash in excess of allowable expenditures.

Nine single audits reported direct findings related to States’ non-adherence to CMIA
agreements.

•     The Delaware Department of Labor (DoL) did not draw funds in accordance with the
      funding techniques specified in the CMIA agreement. Specifically, DoL did not draw
      funds based on the average clearance method and monitor cash balances.

•     The Illinois Department of Human Services (DHS) did not review or re-certify the
      accuracy of clearance patterns identified in the CMIA agreement for cash draws
      related to SSA’s disability programs.

•     The Maryland Department of Education (DoE) did not maintain documentation to
      support check clearance patterns stated in the CMIA agreement for payroll and
      vendor payments.

•     The Maine DHS was not in compliance with the CMIA agreement because it did not
      follow the average clearance pattern method to draw Federal funds.

•     The New Hampshire DoE did not adhere to the clearance method timetable in the
      CMIA agreement to draw Federal funds.

•     The New Mexico DoE’s cash draw records and the State Treasurer’s Federal cash
      draw records were not reconciled, which resulted in an unresolved DDS cash
      balance of $676.

•     The Puerto Rico Department of the Family (DoF) did not have evidence to support
      the time elapsed between the receipt and disbursement of Federal funds for the
      DDS program (State Fiscal Years (SFY) 2000 and 2001).

•     The Rhode Island DHS did not adhere to draw techniques specified in the CMIA
      agreement to draw Federal funds.

Similar crosscutting cash management findings were identified in 10 single audits (see
Appendix D).

EQUIPMENT AND REAL PROPERTY MANAGEMENT
The DDSs are responsible for maintaining, labeling, and inventorying all property they
acquire or that SSA furnishes it to perform the disability determination function.9

9
    POMS DI 39530.020.A.



Summary of Single Audit Oversight Activities (A-07-03-13059)                             3
Inventory records of equipment must include: (1) an item description, (2) source of
funds used in the purchase, (3) unit cost, (4) inventory or serial number, (5) date
purchased, and (6) physical location, including building address and room or floor
location.10 The lack of proper controls over inventory could result in misappropriation or
improper disposition of property acquired with Federal funds.

Three single audits identified direct findings related to weaknesses in equipment
inventory.

•     The Puerto Rico DoF did not maintain accurate records of acquisition dates and
      costs; physical location; and dispositions of property acquired with Federal funds
      (SFY 2000 and 2001).

•     The Rhode Island DHS did not have a statewide fixed asset inventory system; and
      therefore, could not identify equipment purchased with Federal funds.

Similar crosscutting property control findings were identified in 19 single audits (see
Appendix D).

ALLOWABLE COSTS
To be allowable, costs must be reasonable and necessary for proper and efficient
performance and administration of Federal awards.11 A cost is allocated to a program
or department if the goods or services involved are charged or assigned in accordance
with benefits received.12 A cost may not be assigned to a Federal award as a direct
cost if any other cost incurred for the same purpose was allocated to the Federal award
as an indirect cost.13 To recover indirect costs, the organization must prepare cost
allocation plans or indirect cost rate proposals in accordance with guidelines provided in
Office of Management and Budget (OMB) Circular A-87 Cost Principles for State, Local,
and Indian Tribal Governments.14 Costs must be net of all applicable credits that result
from transactions reducing or offsetting direct or indirect costs.15




10
     POMS DI 39530.020.B.
11
     OMB Circular A-87, Attachment A, part C.1.a.
12
     OMB Circular A-87, Attachment A, part C.3.a.
13
     OMB Circular A-87, Attachment A, part C.1.f.
14
     OMB Circular A-87, Attachment A, part C.4. and F.
15
     OMB Circular A-87, Attachment A, part C.4.


Summary of Single Audit Oversight Activities (A-07-03-13059)                               4
Internal control directives require that non-Federal entities receiving Federal awards
maintain effective control and accountability for funds and assets purchased with such
funds.16 Transactions should be properly recorded, accounted for, and executed in
compliance with applicable laws, regulations and the provisions of contracts or grant
agreements that could have a direct and material effect on a Federal program.17 Also,
funds, property, and other assets should be safeguarded against loss from unauthorized
use or disposition.18

The absence of controls over goods and services charged to Federal awards results in
the risk of misappropriation or misuse of funds. In addition, unallowable activities or
costs could be charged to a Federal program and not be detected in a timely manner if
proper internal controls are not in place to ensure that costs benefit the program and are
properly authorized and documented.

Six single audits reported direct findings related to inadequate internal controls over
allowable costs.

•     The Florida Department of Health did not properly prepare payroll certifications to
      support DDS employees’ salaries of $366,019, as required by OMB Circular A-87.

•     The Montana Department of Public Health and Human Services did not have a
      sound control structure to detect or correct errors in its financial records, allocate
      costs between State and Federal programs, or prevent discrepancies between the
      State's primary accounting system and the Department's subsystems. In addition,
      the automated data processing subsystems were not reconciled to the State’s
      primary accounting system, which could result in possible misstatements in financial
      records.

•     The New Mexico DoE did not: (1) reconcile departmental accounting records and
      official State accounting records timely; (2) post vouchers to the general ledger
      timely; and (3) document expenditures related to vocational rehabilitation services in
      accordance with Federal requirements. In addition, the New Mexico DDS did not
      encumber $63,692 in year-end medical expenditures.

•     The New York Office of Temporary and Disability Assistance (OTDA) did not follow
      cost allocation procedures set forth in OMB A-87. In addition, OTDA did not record
      employee salaries correctly in the State’s payroll system due to an inadequate
      accounting and statistical system.



16
 Uniform Administrative Requirements for Grants and Cooperative Agreements to State and Local
Governments, OMB Common Rule, subpart C, § 20(b)(3).
17
     OMB Circular A-133, Audits of States, Local Government, and Non-Profit Organizations, § 105.
18
     OMB Common Rule, subpart C, § 20(b)(3) and OMB Circular A-133, § 105.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                        5
•   The Puerto Rico DoF: (1) used the incorrect indirect cost rate to claim costs on the
    State Agency Report of Obligations (SSA-4513) in SFY 2000; (2) estimated
    personnel costs on the SSA-4513, resulting in questioned costs of $15,438 in
    SFY 2000 and $100,144 in SFY 2001; (3) did not have documentation to support
    DDS expenditures, resulting in questioned costs of $4,527 in SFY 2000, and $548 in
    SFY 2001; (4) could not locate evidence to support expenditures for contracted
    professional services in SFY 2000; (5) did not submit the Time Report of Personnel
    Services (SSA-4514) timely in SFYs 2000 and 2001; and (6) did not maintain
    complete personnel information in employees’ files in SFYs 2000 and 2001.

Crosscutting findings related to allowable costs were disclosed in 28 single audits (see
Appendix D). The findings were in the following areas.

•   Costs were submitted for reimbursement twice or charged to the wrong Federal
    program.

•   Documentation was not maintained to support costs claimed.

•   Accounts were not reconciled accurately and timely.

•   Expenditures were not claimed within the period of availability.

•   Indirect costs were not properly authorized, included costs charged directly to
    Federal programs, and were not equitably distributed to Federal programs.

•   Internal controls over the revenue and expenditure processes were inadequate.

COMPARISON OF SINGLE AUDIT AND OIG FINDINGS
SSA OIG conducts audits of claims by DDSs for administrative costs based on the
frequency of prior audits as well as annual referrals by SSA’s Office of Disability.
Starting in Fiscal Year (FY) 2002, we increased our audit coverage to provide for a
more timely and effective review of administrative costs. We based this schedule on the
following factors: (1) past administrative audits, (2) amount of costs, and
(3) suggestions made by SSA.

The objectives of the audits are to determine whether (1) expenditures and obligations
are properly authorized and disbursed, (2) Federal funds drawn agree with total
expenditures, and (3) internal controls over the accounting and reporting of
administrative costs are adequate.

We performed administrative cost audits at the Alabama, Kansas, Puerto Rico, and
California DDSs covering part of the same time period as the single audits discussed in
this report. Our comparison of the direct single audit findings and OIG findings
disclosed notable differences. Findings identified in the administrative cost audits are
further discussed.


Summary of Single Audit Oversight Activities (A-07-03-13059)                               6
Alabama DDS

Our audit of the Alabama DDS covered the period October 1997 through
September 2000 and included any subsequent financial activities that affected those
FYs as of June 30, 2001. The audit identified equipment items that were not properly
labeled and inventory records that were incomplete and inaccurate (see Appendix E).
The single audit did not report any direct findings for the Alabama DDS.

Kansas DDS

Our audit of the Kansas DDS covered the period October 1997 through
September 2000. However, the audit was expanded to fully develop the indirect cost
finding which affected the costs claimed in FYs 2001 and 2002. The audit identified that
obligations were overstated by $2,456,980 because of (1) incorrect indirect cost
allocations, (2) excessive consultative examination payments, (3) inappropriate non-
SSA work cost charges, and (4) inaccurate other nonpersonnel costs. In addition,
$1,106,542 was claimed for reimbursement in the incorrect FY, procedures were not
adequate to determine and account for cash draws by FY reporting period, and
computer access controls were weak (see Appendix E). The single audit did not report
any direct findings for the Kansas DDS.

Puerto Rico DDS

Our audit of the Puerto Rico DDS covered the period October 1997 through
September 2000. The audit identified that the DDS (1) overstated obligations reported
on the SSA-4513 by $58,102 in direct costs and $8,673 in indirect costs, (2) overstated
other unliquidated obligations, totaling $102,820, (3) did not comply with State policy for
overtime, (4) had internal control weaknesses involving the accounting for and reporting
of administrative costs and was in noncompliance with several regulations and policies,
and (5) did not take appropriate corrective action on findings identified in previous single
audits (see Appendix E). The single audit identified problems related to cash
management, equipment and real property management, and allowable costs (see
Appendix C).

California DDS

Our audit of the California DDS covered the period October 1996 through March 2002.
The audit identified that the California DSS had overstated its disbursements by
$6,872,503.19 This occurred because DSS charged unallowable medical,
nonpersonnel, and indirect costs to SSA. In addition, the DSS overstated its
unliquidated obligations by $5,708,314 for FY 1999 and 2000, and lacks control over its
cash management practices and computer security (see Appendix E). The single audit
did not report any direct findings for the California DDS.

19
  The questioned costs were not specifically identified by FY. Therefore, we were unable to report the
questioned costs for the time period of the single audit.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                             7
                                               Conclusions and
                                              Recommendations
The three recommendations listed below were presented to SSA in our prior single audit
summary report.20 Therefore, SSA should not consider these new recommendations for
its audit recommendation tracking system. We do, however, continue to reaffirm our
position that SSA should take corrective action by being proactive in providing internal
control guidance to DDSs. To do so, SSA should provide the following instructions to
DDSs.

1. Adhere to the terms of the CMIA agreement.

2. Maintain complete and accurate equipment inventory records and perform periodic
   physical inventories.

3. Ensure that costs charged to SSA benefit its programs and are properly authorized
   and documented.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations and stated that
corrective actions were taken. SSA also provided technical comments which we
addressed as appropriate. See Appendix F for the text of SSA’s comments.




20
  Summary of Fiscal Year 2000 Single Audit Oversight Activities (A-07-02-32035) issued
September 20, 2002.


Summary of Single Audit Oversight Activities (A-07-03-13059)                             8
                                            Appendices




Summary of Single Audit Oversight Activities (A-07-03-13059)
                                                                       Appendix A
Background, Scope and Methodology
BACKGROUND

Single Audit Act

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156. The Amendments extended the statutory audit requirement to
nonprofit organizations and revised various provisions of the 1984 Single Audit Act,
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000.1 On June 30, 1997, the Office of Management and
Budget (OMB) issued revised Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, to implement the 1996 amendments. The revised
Circular A-133 was effective July 1,1996, and applies to audits of fiscal years beginning
after June 30, 1996. This Circular requires non-Federal entities that expend
$300,000 or more per year in Federal awards to have a single or program-specific audit
conducted for that year.2

State DDSs

The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act to provide benefits to disabled wage earners and their families. In
1972, Congress enacted the Supplemental Security Income (SSI) program, to provide
income and disability coverage to financially needy individuals who are aged, blind
and/or disabled.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the DI and SSI programs. According to Federal regulations,3 the
Disability Determination Services (DDS) in each State generally performs disability
determinations under the DI and SSI programs. In carrying out this function, the DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations.4 In those limited instances where SSA makes
disability determinations, regulations provide that each State agency will obtain and
furnish medical or other evidence and provide assistance as may be necessary for SSA
to carry out its responsibility for making such determinations.5 SSA reimburses the DDS


1
    31 USC §§ 7501 et seq.
2
    OMB Circular A-133, Subpart B § 200 (b).
3
    20 CFR §§ 404.1601 et seq. and 416.1001 et seq.
4
    20 CFR §§ 404.1614 and 416.1014.
5
    Id.

Summary of Single Audit Oversight Activities (A-07-03-13059)                           A-1
for 100 percent of allowable expenditures.6 There are 54 DDSs located in the 50
States, the District of Columbia, Puerto Rico, Guam, and the Virgin Islands. All DDSs,
except the federally administered Virgin Islands DDS, are subject to audit under the
Single Audit Act Amendments of 1996.

Each DDS is managed by a State parent agency, which administers other State and
Federal programs. There are also other agencies within the State that administer
various aspects of Federal programs, such as cash draws and electronic data
processing.

Direct and Crosscutting Findings

In conducting single audits, the auditor uses a risk-based approach to determine which
Federal programs will receive audit coverage. The single audit also includes an audit of
the State’s financial statements. The two parts of the single audit identify direct or
crosscutting findings.

Direct findings are specifically identified to the Federal programs they affect. The direct
SSA findings are identified in single audits by the Catalog of Federal Domestic
Assistance number 96. The single audits also report findings that impact more than one
Federal program, referred to as crosscutting. However, crosscutting findings may not
be identified to any one Federal program or may not be identified to all Federal
programs. Thus, the auditor may not be in a position to identify findings for SSA-funded
programs because of the limited scope of the single audit. While crosscutting findings
are not specifically identified to SSA, they could impact DDS operations.

SCOPE AND METHODOLOGY
We reviewed 507 single audits and the related recommendations and auditee
responses. Of the 50 single audits, 14 reported direct findings related to DDSs. These
findings, questioned costs, and related recommendations were previously reported on a
State-by-State basis to SSA’s Management Analysis and Audit Program Support Staff
for resolution. In addition, 39 of the 50 single audits reported crosscutting findings that
could possibly affect DDS operations. To identify crosscutting issues, we reviewed all
findings reported for the State agency that managed the DDS and State agencies that
performed functions for the DDS.




6
    POMS DI 39501.020, B.1.
7
  The 50 single audits included 2 State fiscal year (SFY) 2000 single audits and 48 SFY 2001 single
audits. The SFY 2001 single audits for the District of Columbia and Guam have not been completed.
Michigan and North Dakota issue biennial single audits, therefore, SFY 2001 single audit results will be
reported in the SFY 2001-2002 single audit. We have not completed our review of the West Virginia
SFY 2001 single audit, due to a pending audit by the Office of the Inspector General. The federally
administered Virgin Islands DDS is not required to have a single audit.

Summary of Single Audit Oversight Activities (A-07-03-13059)                                           A-2
We also reviewed relevant provisions of the:

   Single Audit Act Amendments of 1996, revised OMB Circular A-133, and OMB
    Circular A-133, Compliance Supplement (March 2001 revision);

   OMB Uniform Administrative Requirements for Grants and Cooperative Agreements
    to State and Local Governments (Common Rule);

   OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments;

   Title II and Title XVI of the Social Security Act;

   Program Operations Manual System instructions;

   Cash Management Improvement Act of 1990;

   SSA Systems Security Handbook; and

   Office of the Inspector General (OIG) administrative cost audit reports for the
    Alabama, Kansas, Puerto Rico, and California DDSs.8

The Compliance Supplement identifies seven types of compliance requirements
auditors should consider for the SSA programs in performing single audits. Our review
of the 50 single audits identified common direct findings in 3 of the categories: cash
management, equipment and real property management, and allowable costs. In
addition to these categories, we identified crosscutting findings in the procurement and
reporting categories. This report presents the findings by the related Compliance
Supplement category.

We performed fieldwork in Kansas City, Missouri, from May 2002 to April 2003. We
conducted our review in accordance with Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




8
  OIG audits of the Alabama, Kansas, Puerto Rico, and California DDSs are the only OIG audits covering
the same or partial period as the single audits discussed in this report.

Summary of Single Audit Oversight Activities (A-07-03-13059)                                       A-3
                                                                                                                                                                 Appendix B
Summary of Single Audit Findings
                                                           Direct Findings1                                                                     Crosscutting Findings2




                                                                                            4




                                                                                                                                                                                     4
                                                                        Property Management




                                                                                                                                                                 Property Management
                                        Cash Management




                                                                                                                              Cash Management
                            State
                            Fiscal




                                                                                                            Allowable Costs




                                                                                                                                                                                                     Allowable Costs
                                                                        Equipment/Real




                                                                                                                                                                 Equipment/Real
            State




                                                          3




                                                                                                                                                  3
                             Year




                                                          Procurement




                                                                                                                                                   Procurement
                                                                                                5




                                                                                                                                                                                         5
                                                                                                Reporting




                                                                                                                                                                                         Reporting
    Alabama                  2001                                                                                                                                       X
    Alaska7                  2001
    Arizona                  2001                                                                                                                                       X
    Arkansas6                2001
    California               2001                                                                                               X                   X                                    X
    Colorado                 2001                                                                                                                                       X                              X
    Connecticut              2001                                                                                               X                                       X                              X
    Delaware                 2001         X
    District of Columbia6    2000
    Florida                  2001                                                                             X                                                                                        X
    Georgia                  2001                                                                                                                                       X                              X
    Hawaii7                  2001                                                                                                                                       X                              X
    Idaho                    2001                                                                                                                                                                      X
    Illinois                 2001         X
    Indiana7                 2001
    Iowa                     2001                                                                                               X                                                                      X
    Kansas                   2001                                                                                                                                                                      X
    Kentucky                 2001                                                                                                                                       X                              X
    Louisiana                2001                                                                             X                                                         X                              X
    Maine                    2001         X                                                                                     X                   X                   X                              X
    Maryland                 2001         X                                                                                                                                              X


1
    See Appendix C for detailed direct findings.
2
    See Appendix D for detailed crosscutting findings.
3
    There were no direct findings identified in this category.
4
    This category includes crosscutting findings that were identified in the areas of computer controls and/or
    property controls.
5
    There was only one direct finding identified in this category.
6
    The single audit did not report any findings.
7
    The single audit reported findings, but they did not have a potential affect on the Disability Determination
    Services.

Summary of Single Audit Oversight Activities (A-07-03-13059)                                                                                                                                                       B-1
                                                      Direct Findings1                                                                     Crosscutting Findings2




                                                                                       4




                                                                                                                                                                                4
                                                                   Property Management




                                                                                                                                                            Property Management
                                   Cash Management




                                                                                                                         Cash Management
                        State
                        Fiscal




                                                                                                       Allowable Costs




                                                                                                                                                                                                Allowable Costs
                                                                   Equipment/Real




                                                                                                                                                            Equipment/Real
          State




                                                     3




                                                                                                                                             3
                         Year




                                                     Procurement




                                                                                                                                              Procurement
                                                                                           5




                                                                                                                                                                                    5
                                                                                           Reporting




                                                                                                                                                                                    Reporting
 Massachusetts          2001                                                                                                                                                                      X
 Minnesota              2001                                                                                                                                       X                              X
 Mississippi            2001                                                                                                                                       X
 Missouri               2001                                                                                                                                                        X             X
 Montana              2000/2001                                                                         X                 X                   X                    X                X             X
 Nebraska               2001                                                                                                                                                                      X
 Nevada7                2001
 New Hampshire          2001         X
 New Jersey             2001                                                                                                                                                                      X
 New Mexico             2001         X                                                                   X                                                                          X             X
 New York               2001                                                                             X                                                                          X             X
 North Carolina         2001                                                                                                                   X                   X                              X
 Ohio                   2001                                                               X
 Oklahoma                2001                                                                                              X                                                                      X
 Oregon                  2001
 Pennsylvania            2001                                                                                              X                   X                                                  X
 Puerto Rico          2000/2001     X                                    X                              X                  X                                       X                X             X
 Rhode Island            2001        X                                    X                                                                    X
 South Carolina          2001                                                                                                                                      X
 South Dakota            2001                                                                                                                                                                     X
 Tennessee               2001                                                                                                                                      X
 Texas                   2001                                                                                              X
 Utah                    2001                                                                                              X                                                                      X
 Vermont                 2001                                                                                                                                      X
 Virginia                2001                                                                                                                                      X                              X
 Washington              2001                                                                                                                  X
 Wisconsin               2001                                                                                                                  X                   X                              X
 Wyoming7                2001




Note: See page B-1 for explanation of footnotes 1 through 7.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                                                                                                                                  B-2
                                                                                   Appendix C
Direct Findings Reported in 14 Single Audits
                                                                                     QUESTIONED
    STATE                            DIRECT FINDINGS
                                                                                       COSTS
    Delaware    1. The parent agency for the Delaware Disability Determination                       $0
     2001          Services (DDS), the Department of Labor (DoL), did not draw
                   funds in accordance with the funding techniques specified in
                   the Cash Management Improvement Act (CMIA) agreement.
                   Specifically, DoL did not draw funds based on the average
                   clearance method, or monitor cash balances.


     Florida    1. The parent agency for the Florida DDS, the Department of                   $366,019
      2001         Health, did not properly prepare payroll certifications to
                   support DDS employees’ salaries.


     Illinois   1. The parent agency for the Illinois DDS, the Department of                         $0
      2001         Human Services (DHS) did not review or re-certify the
                   accuracy of clearance patterns identified in the CMIA
                   agreement for cash draws related to SSA’s disability
                   programs.


    Louisiana   1. The parent agency for the Louisiana DDS, the Department of                        $0
      2001         Social Services (DSS), did not provide sufficient resources
                   for the DDS to efficiently process SSA’s disability workload.
                   During State fiscal years (SFY) 2000 and 2001, DSS denied
                   the DDS' repeated requests for paid overtime and additional
                   staff resources. Its failure to provide sufficient resources
                   resulted in a high backlog of disability claims and delays in
                   claimants' receiving disability decisions.1


     Maine      1. The parent agency for the Maine DDS, DHS, was not in                              $0
     2001          compliance with the CMIA agreement because it did not
                   follow the average clearance pattern method to draw Federal
                   funds.


    Maryland    1. The parent agency for the Maryland DDS, the Department of                         $0
     2001          Education (DoE), did not maintain documentation to support
                   the check clearance patterns stated in the CMIA agreement
                   for payroll and vendor payments.




1
  This finding and related recommendation was previously reported on an individual basis to SSA’s
Management Analysis and Audit Program Support Staff for resolution. Since it is the only one of this type
identified in the single audits further discussion is not included in this report.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                         C-1
                                                                                  QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                    COSTS
  Montana     1. The parent agency for the Montana DDS, the Department of                   $0
   2001          Public Health and Human Services, did not have a sound
                 control structure to detect or correct errors in its financial
                 records, allocate costs between State and Federal programs,
                 or prevent discrepancies between the State's primary
                 accounting system and the Department's subsystems.

              2. In addition, the automated data processing subsystems were                 $0
                 not reconciled to the State’s primary accounting system,
                 resulting in possible misstatements in financial records.


   New        1. The parent agency for the New Hampshire DDS, the DoE,                      $0
 Hampshire       did not adhere to the clearance method timetable in the CMIA
   2001          agreement to draw Federal funds.


New Mexico    1. The parent agency for the New Mexico DDS, DoE, did not                     $0
  2001           reconcile its accounting records to the official State
                 accounting records timely.

              2. DoE cash draw records and the State Treasurer's Federal                    $0
                 cash draw records were not reconciled, which resulted in an
                 unresolved DDS cash balance of $676.

              3. DoE vouchers were not posted to the general ledger timely.                 $0

              4. The DDS did not encumber $63,692 of its year-end medical                   $0
                 expenditures.

              5. Expenditures related to vocational rehabilitation services                 $0
                 were not documented in accordance with Federal
                 requirements.


 New York     1. The parent agency for the New York DDS, the Office of                 $250,635
   2001          Temporary and Disability Assistance (OTDA), miscoded
                 payroll expenses in the State’s payroll system.

              2. OTDA allocated indirect costs based on methodologies that                  $0
                 were not approved by the Department of Health and Human
                 Services’ Division of Cost Allocation.




Summary of Single Audit Oversight Activities (A-07-03-13059)                                C-2
                                                                                          QUESTIONED
     STATE                             DIRECT FINDINGS
                                                                                            COSTS
       Ohio       1. Medical consultant time was under-reported by 3,590 hours                             $0
       2001          on the Time Report of Personnel Services (SSA-4514) for the
                     quarter ended December 31, 2000.2

                  2. Hearing officer overtime was under-reported by 510 hours                              $0
                     and unpaid leave was over-reported by 865 hours on the
                     SSA-4514 for the quarter ended June 30, 2001.

                  3. All other part-time employee overtime and unpaid leave were                           $0
                     over-reported by 579 hours and 355 hours, respectively, on
                     the SSA-4514 for the quarter ended June 30, 2001.


    Puerto Rico   1. Evidence could not be located to support the time elapsed                             $0
      2000           between the receipt and disbursement of Federal funds for
                     the DDS program.

                  2. Complete personnel information was not maintained in the                              $0
                     employees files.

                  3. The Puerto Rico Department of the Family (DoF) did not                                $0
                     maintain accurate records of acquisition dates and costs,
                     physical location, and dispositions of property acquired with
                     Federal funds.

                  4. DDS expenditures were not supported by documentation.                            $4,527

                  5. Evidence to support expenditures for professional services                            $0
                     contracted by DoF could not be located.

                  6. Estimated personnel costs were used on the State Agency                         $15,438
                     Report of Obligations (SSA-4513).

                  7. The indirect cost rate used to claim costs on the SSA-4513                            $0
                     was incorrect.

                  8. The SSA-4514 was not submitted timely.                                                $0




2
 These findings and related recommendations were previously reported on an individual basis to SSA’s
Management Analysis and Audit Program Support Staff for resolution. Since Ohio was the only State
with findings of this type identified in the single audits further discussion is not included in this report.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                               C-3
                                                                               QUESTIONED
  STATE                            DIRECT FINDINGS
                                                                                 COSTS
Puerto Rico    1. Complete personnel information was not maintained in                   $0
  2001            employee files.

               2. Estimated personnel costs were used on the SSA-4513.              $100,144

               3. Evidence could not be located to support the time elapsed              $0
                  between the receipt and disbursement of Federal funds for
                  the DDS program.

               4. DDS expenditures were not supported by documentation.                $548

               5. DoF did not maintain accurate records of acquisition dates             $0
                  and costs, physical location, and dispositions of property
                  acquired with Federal funds.

               6. The SSA-4514 was not submitted timely.                                 $0


Rhode Island   1. The parent agency for the Rhode Island DDS, DHS, did not               $0
   2001           adhere to draw techniques specified in the CMIA agreement
                  for draws of Federal funds.

               2. The State does not have a statewide fixed asset inventory              $0
                  system; and therefore, could not identify equipment
                  purchased with Federal funds.



                                                 Total Questioned Costs            $737,311




Summary of Single Audit Oversight Activities (A-07-03-13059)                             C-4
                                                                                     Appendix D
Crosscutting Findings Reported
in 39 Single Audits
                                                                                     QUESTIONED
      STATE                       CROSSCUTTING FINDINGS
                                                                                       COSTS1
      Alabama          1. Policies and procedures for systems access by users                         $0
        2001              and data processing personnel were inadequate.

                       2. A formal written contingency plan to be followed in                         $0
                          the event of a disaster that adversely affects the
                          operations of the data center was not implemented.


      Arizona          1. The State’s Information Services Division, which                            $0
       2001               operates the State’s computer system, had not
                          implemented a formal contingency plan to be
                          followed in the event of a disaster that adversely
                          affects its operations.


      California       1. Certifications of suspended or debarred parties were                        $0
       2001               not obtained.

                       2. The time between the receipt and disbursement of                            $0
                          Federal funds for two programs reviewed was not
                          minimized.

                       3. Limitations in the State’s automated accounting                             $0
                          systems did not allow it to report expenditures by
                          program on the Schedule of Expenditures of Federal
                          Awards.


      Colorado         1. Fixed asset expenditures were not reconciled prior to                       $0
       2001               closing the financial records.

                       2. Funds for personal services payments for 1 year                             $0
                          where charged to funds spent in a separate year.




1
 These amounts were reported in the single audit reports as questioned costs for various Federal
programs. They were not specifically identified to the Social Security Administration’s disability programs.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                            D-1
                                                                                 QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                   COSTS1
    Connecticut      1. Federal funds were drawn in advance of needs.                      $0
      2001
                     2. Employees’ salaries were not properly charged to the               $0
                        benefiting Federal programs.

                     3. Automatic data processing system security reviews                  $0
                        were not performed for the installations that were
                        involved in the administration of programs.


      Florida        1. Personnel costs were not properly allocated to                 $57,683
       2001             benefiting Federal programs.


      Georgia        1. Bank statements were not reconciled with the                       $0
       2001             accounting records on a timely basis.

                     2. Procedures were not in place to complete                           $0
                        reconciliations appropriately and account balances
                        were not properly cleared at the end of the fiscal
                        year (fy).

                     3. Internal controls were not in place to ensure that                 $0
                        equipment inventories were maintained in
                        accordance with State laws and regulations.


      Hawaii         1.   Vacation and sick leave records were not properly                $0
       2001               maintained.

                     2.   State property inventory records were incomplete                 $0
                          and inaccurate and fixed asset acquisitions were not
                          recorded timely.

                     3.   Payroll costs were improperly charged to the                 $51,700
                          incorrect grant.


       Idaho         1. Costs allocated to Federal grants were not always                  $0
       2001             based on actual time spent on the program.




 Note: See D-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-03-13059)                                  D-2
                                                                                  QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                    COSTS1
       Iowa          1. Payroll allocations were not entered into the payroll              $0
       2001             system accurately or timely.

                     2. Draw downs of Federal funds were not accurate.                     $0

                     3. Costs charged to various programs did not agree                    $0
                        with supporting documentation, and in other cases
                        documentation was not available to support changes
                        made to the cost allocation system.


      Kansas         1. Combined financial statements did not include                      $0
       2001             certain assets and liabilities of the State nor was the
                        information documented in the State's accounting
                        system.


     Kentucky        1. Catalog of Federal Domestic Assistance numbers                     $0
      2001              were improperly coded in the system.

                     2. Office of Financial Management (OFM) did not have                  $0
                        proper security over its primary server.

                     3. OFM did not develop and implement formal policies                  $0
                        and procedures for controls over program
                        modifications.

                     4. Controls were not in place to ensure security over the             $0
                        network servers.

                     5. Adequate security controls were not provided for the               $0
                        payroll and personnel system.


     Louisiana       1. The Integrated Statewide Information Systems used                  $0
       2001             to process payroll and personnel data contained
                        several control weaknesses.

                     2. User access to electronic data processing                          $0
                        applications was not properly restricted.

                     3. Accounting controls were inadequate over movable                   $0
                        property acquisition, disposition, valuation, and
                        location.

                     4. Effective internal audit functions for the State to                $0
                        examine, evaluate, and report on internal controls
                        (including data processing) were lacking.




 Note: See D-1 for footnote explanation.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                   D-3
                                                                               QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                 COSTS1
       Maine         1. Costs were submitted for reimbursement twice.                   $0
       2001
                     2. Internal controls were not adequate to ensure                   $0
                        complete and accurate recording of fixed assets.

                     3. Quarterly financial reports were not reconciled to              $0
                        accounting records.

                     4. Controls and procedures were not in place to record             $0
                        and disclose operating lease transactions.

                     5. Policies and procedures were inadequate to ensure               $0
                        contracts were not awarded to debarred or
                        suspended parties.

                     6. Controls were inadequate to ensure complete and                 $0
                        accurate reporting for the Schedules of Expenditures
                        of Federal Awards.

                     7. Documentation was not adequate to support salary                $0
                        expenditures.

                     8. Controls were not in place to ensure cost allocation            $0
                        plans contained accurate financial information.

                     9. Internal controls were inadequate to ensure                     $0
                        compliance with the Cash Management Improvement
                        Act (CMIA) agreement.

                     10. The time between the receipt and disbursement of               $0
                         Federal funds was not minimized.

                     11. Payroll costs were charged to the wrong Federal                $0
                         program.

                                                                                        $0
     Maryland        1. Internal control weaknesses existed in recording and
      2001              reporting cash management activities.


  Massachusetts      1. Indirect costs were charged using an outdated rate.             $0
      2001
                     2. Procedures in the cost allocation plan to establish             $0
                        rates for computer tape and report storage costs
                        were not followed.




 Note: See D-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-03-13059)                                D-4
                                                                              QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                COSTS1
     Minnesota       1. Costs were recorded in the wrong fiscal year.                  $0
       2001
                     2. Accounts receivable were not monitored or recorded.         $8,292

                     3. Computer controls were not in place for employee               $0
                        access, accounts, and passwords.


    Mississippi      1. Physical security controls over network computer               $0
      2001              equipment and communications equipment were
                        inadequate.


      Missouri       1. Controls for the new State accounting system were              $0
       2001             inadequate.

                     2. The Office of Administration did not issue the                 $0
                        Comprehensive Annual Financial Report timely.


     Montana         1. Cash draws were earlier than allowed by the                    $0
      2001              clearance patterns established in the CMIA
                        agreement.

                     2. The Department of Administration was unable to                 $0
                        reconcile bank account records to the State's
                        accounting records.

                     3. Controls were not in place to ensure that interest             $0
                        calculation spreadsheets were accurate and
                        reconciled with the accounting records.

                     4. Procedures were not followed to verify that                    $0
                        contractors were not suspended or debarred.

                     5. Cash draws were consistently calculated in a manner            $0
                        contrary to the CMIA agreement.

                     6. Procedures were not in place to ensure accounting              $0
                        records supported Federal reports.

                     7. Federal regulations for the review and analysis of             $0
                        data processing and system security issues were not
                        followed.




 Note: See D-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-03-13059)                               D-5
                                                                                QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                  COSTS1
     Nebraska        1. Financial reconciliations were not posted accurately             $0
       2001             or in a timely manner.

                     2. Findings relating to financial statements were not               $0
                        prepared as required by generally accepted
                        government auditing standards.


    New Jersey       1. Expenditures were not reconciled with financial                  $0
      2001              records on the central accounting system.


    New Mexico       1. Financial status reports were not submitted timely.              $0
      2001
                     2. Internal Revenue Service form W-4 could not be                   $0
                        located for one employee.

                     3. Staff took annual leave without advance approval.                $0


     New York        1. Claims were not submitted timely for Federal                     $0
       2001             reimbursement.

                     2. Inaccurate information was entered on financial                  $0
                        status reports.

                     3. Pre-settlement reviews were not performed for                    $0
                        claims submitted for current expenditures and prior
                        adjustments.


   North Carolina    1. Employee access to the accounting system was not                 $0
       2001             limited to areas necessary for their jobs.

                     2. Contract approval was not obtained prior to receiving            $0
                        services.

                     3. Procedures were not in place to ensure employee                  $0
                        timesheets were accurate.

                     4.   Invoices were not processed timely.                            $0


     Oklahoma        1. Funds were not drawn in accordance with the CMIA                 $0
       2001             agreement.

                     2. Costs were not allocated in accordance with the                  $0
                        indirect cost proposal and the approved indirect cost
                        rate was not applied to FY 2001 costs.


 Note: See D-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-03-13059)                                 D-6
                                                                                QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                  COSTS1
   Pennsylvania      1. Policies and procedures were inadequate to ensure                  $0
      2001              contracts were not awarded to debarred or
                        suspended parties.

                     2. Interest liability was understated on the CMIA annual         $83,212
                        report.

                     3. Clearance pattern requirements were not followed.                  $0

                     4. There was no documentation to support the salary              $33,276
                        and fringe benefits of an employee and time
                        distribution records were not available for the same
                        employee.


    Puerto Rico      1. Evidence to support draws of Federal funds could not          $38,222
    2000/2001           be located.

                     2. Expenditures were charged to incorrect grants.              $1,228,274

                     3. Financial statements were not prepared in conformity               $0
                        with Generally Accepted Accounting Principles, due
                        to a lack of policies, procedures, and financial
                        reporting practices.

                     4. Financial Status Reports did not agree with the                    $0
                        General Ledger.

                     5. Expenditures charged to Federal funds were not             $13,933,027
                        supported.

                     6. Property and equipment management procedures                $2,461,057
                        were not adequate.

                     7. The filing system was not effective.                               $0

                     8. The Cost Allocation Plan was not approved.                  $1,361,646

                     9. Federal reports were not submitted timely.                  $5,270,450




 Note: See D-1 for footnote explanation.



Summary of Single Audit Oversight Activities (A-07-03-13059)                                 D-7
                                                                                QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                  COSTS1
   Rhode Island      1. Certifications to ensure contracts were not awarded              $0
      2001              to debarred or suspended parties were not
                        maintained.

                     2. Controls were inadequate over the State Accounting               $0
                        System and the Payroll Accounting System regarding
                        password access to computer systems.


  South Carolina     1. Controls were not in place to ensure only authorized             $0
      2001              personnel have access to network equipment.

                     2. Controls were not in place to restrict programmer                $0
                        access to data.

                     3. The new disaster recovery plan had not been tested               $0
                        and a review of the draft copy of the plan showed
                        that it was incomplete.


   South Dakota      1. Internal controls over revenue and expenditure                   $0
      2001              processes, cash, and fixed assets were inadequate,
                        and duties were not properly segregated.

                                                                                         $0
    Tennessee        1. The Department did not maintain proper
      2001              accountability nor perform a complete physical
                        inventory over its equipment.


       Texas         1. The CMIA agreement was not followed and                          $0
       2001             clearance patterns were not completely developed.


       Utah          1. Federal funds were not obligated within the period of            $0
       2001             availability.

                     2. Federal draws were not made timely.                              $0


      Vermont        1. An Automated Data Processing risk analysis and                   $0
       2001             system security review was not performed.




 Note: See D-1 for footnote explanation.


Summary of Single Audit Oversight Activities (A-07-03-13059)                                 D-8
                                                                                QUESTIONED
     STATE                      CROSSCUTTING FINDINGS
                                                                                  COSTS1
      Virginia       1. Policies and procedures were not established for the               $0
       2001             check processing function resulting in duplicate
                        checks being issued.

                     2. There was insufficient documentation and a lack of                 $0
                        procedures for the implementation of program
                        changes to the system.

                     3. Monthly reconciliations input into the agency                      $0
                        expenditure reimbursement system were not
                        compared to the financial accounting analysis
                        system as required.


    Washington       1. Required certifications were not obtained for vendors              $0
      2001              as required in the suspension and debarment
                        requirements.


     Wisconsin       1. Policies and procedures were inadequate to ensure                  $0
       2001             contracts were not awarded to debarred or
                        suspended parties.

                     2. Access to the statewide computer system was not                    $0
                        limited to the appropriate personnel.

                     3. Procedures stated in the Cost Allocation Plan were                 $0
                        not followed.



                                               Total Questioned Costs             $24,526,839




 Note: See D-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-03-13059)                                 D-9
                                                                                    Appendix E
Findings Identified during the Same Time
Frame as the Single Audits Reviewed
                       OFFICE OF THE INSPECTOR GENERAL (OIG)                            QUESTIONED
    OIG AUDIT
                                      FINDINGS1                                           COSTS
     Audit of
  Administrative   1. Personnel did not label a mailing machine and supporting                        $0
 Costs Claimed        console, mail scale, and laser facsimile machine located in
 by the Alabama       the Mobile, Alabama DDS office.
     Disability
  Determination    2. Sorting units were misclassified as workstations and were                       $0
     Services         subsequently deleted from the current inventory listing.
(A-08-01-11050)


                   1. Indirect costs were not allocated to all benefiting                    $2,192,154
                      components, and information technology costs were not
                      allocated according to the approved cost allocation plan,
                      resulting in unallowable costs of $964,509 in Fiscal
                      Year (FY) 2000 and $1,227,645 in FY 2001.

                   2. Expenditures totaling $1,106,542 were reported on the State                     $0
                      Agency Report of Obligations (SSA-4513) in the wrong FYs,
                      although the costs were otherwise acceptable for
                      reimbursement.
  Audit of the
                   3. Hospitals, clinics, and individual physicians were reimbursed            $173,804
 Administrative
                      for consultative examinations (CE) at rates that exceeded the
 Costs Claimed
                      highest rate paid by Federal or other agencies in the State.
 by the Kansas
    Disability
                   4. Non-SSA work related costs were charged to SSA and the                    $89,174
 Determination
                      method used to calculate non-SSA costs was not consistent
    Services
                      with the terms of the memorandum of understanding.
(A-07-02-22003)
                   5. Unallowable costs were charged for communication services                  $1,848
                      not related to the DDS; Federal, State and local excise taxes;
                      and late fees.

                   6. Procedures were not adequate to determine and account for                       $0
                      cash draws by FY reporting period.

                   7. Timekeeping duties were not properly segregated.                                $0

                   8. Computer access controls were weak.                                             $0




1
 Only the findings and questioned costs identified for the same period as the single audit are reported.
Summary of Single Audit Oversight Activities (A-07-03-13059)                                         E-1
                      OFFICE OF THE INSPECTOR GENERAL (OIG)                            QUESTIONED
 OIG AUDIT
                                     FINDINGS1                                           COSTS
                                                                                           $58,102
                    1. Unallowable payroll costs were claimed due to costs being
                       estimated.
                                                                                            $8,673
                    2. Unallowable indirect costs were claimed due to the rate
                       being applied to unallowable direct costs.
                                                                                               $0
                    3. Accounting records for the disability program did not agree
                       with the parent agency accounting records as a result of
                       different FYs recorded on some vouchers.
                                                                                          $102,820
                    4. Unliquidated obligations on the SSA-4513 reports were not
                       resolved and continued to be reported the next 2 FYs as
  Audit of the
                       unliquidated obligations on the reports.
 Administrative
 Costs Claimed                                                                                 $0
                    5. Cumulative disbursements consistently exceeded the
     by the
                       amount of SSA funds requested.
 Commonwealth
 of Puerto Rico                                                                                $0
                    6. Employees were paid time and a half for extra hours worked
    Disability
                       resulting in $53,803 in paid overtime. State policy requires
 Determination
                       compensatory time off for extra hours worked.
    Program
(A-06-02-22072)                                                                                $0
                    7. Selected payroll costs were inappropriately reclassified from
                       direct to indirect costs.
                                                                                               $0
                    8. Internal controls were not adequate to ensure consultative
                       examinations were properly authorized.
                                                                                               $0
                    9. The CE fee schedule was not reviewed and updated
                       annually.
                                                                                               $0
                    10. Appropriate corrective action was not taken on some prior
                        years’ single audit findings.




Note: See E-1 for footnote explanation.




Summary of Single Audit Oversight Activities (A-07-03-13059)                                  E-2
                         OFFICE OF THE INSPECTOR GENERAL (OIG)                           QUESTIONED
    OIG AUDIT
                                        FINDINGS1                                          COSTS
                      1. The DSS claimed unallowable medical costs which included          $2,630,4492
                         (a) excessive fees for specialty examinations, x-rays,
                         laboratory tests, other medical services, and review of
                         medical evidence of record (MER); and (b) duplicate
                         payments for MERs and CEs.
     Administrative                                                                                    2
                                                                                          $2,362,730
     Costs Claimed    2. Unallowable nonpersonnel costs were charged to SSA for
         by the          (a) excessive rental costs and (b) costs related to non-SSA
       California        programs.
       Disability                                                                                      2
                      3. Unallowable costs were charged to SSA for indirect costs         $1,708,097
     Determination
        Program          that did not benefit SSA’s programs. These costs included
    (A-09-02-2022)       statewide, departmental, and special administrative indirect
                         costs.
                                                                                                       2
                      4. Cash management practices were lacking regarding the               $171,227
                         collection of funds from unnegotiated warrants, the use of
                         SSA funds to replenish State funds, and proper draw down of
                         Federal funds.

                      5. Unliquidated obligations in excess of supporting expenditures              $0
                         were reported in the areas of medical, nonpersonnel, and
                         indirect costs.

                      6. Access controls over computer security were lacking. These                 $0
                         controls included the monitoring of MIDAS transactions and
                         safeguards over employee workstations.

                                                       Total Questioned Costs             $9,499,078




Note: See E-1 for footnote 1 explanation.

2
 The questioned costs were not specifically identified by FY. Therefore, we were unable to report the
questioned costs for the time period of the single audit.
Summary of Single Audit Oversight Activities (A-07-03-13059)                                       E-3
                                                               Appendix F
Agency Comments




Summary of Single Audit Oversight Activities (A-07-03-13059)
                                         SOCIAL SECURITY
MEMORANDUM                                                                        55-24-1039


Date:      September 15, 2003                                                     Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Management Advisory Report, "Summary of Single
           Audit Oversight Activities” (A-07-03-13059)--INFORMATION


           We appreciate the OIG’s effort in conducting this review. Our comments on the draft report
           content are attached.

           Staff questions may be referred to Gail Scruggs at extension 5-4259.

           Attachment:
           SSA Response




           Summary of Single Audit Oversight Activities (A-07-03-13059)                             F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “SUMMARY OF SINGLE AUDIT OVERSIGHT
ACTIVITIES” (A-07-03-13059)

Thank you for the opportunity to comment on this draft report. In this report, OIG repeated three
recommendations that were included in a previous audit, “Summary of Single Audit Oversight
Activities October 2000 through April 2002” dated September 2002 (A-07-02-32035). We are
pleased to report that corrective action has been taken to implement these recommendations.
However, OIG reaffirmed its position that the Agency should continue to provide guidance to the
State Disability Determination Services (DDS) and cited three specific areas that remain a
concern. They are: 1) cash management; 2) equipment and real property management; and 3)
allowable costs. Acknowledging the importance of accounting for funds provided to the DDSs
to perform SSA work, we, on an ongoing basis, send out reminders to the State DDSs on proper
reporting procedures. We also provide guidance to the DDSs via the DDS Security Document
(DSD) whose purpose is providing guidance to the DDSs in the area of physical and systems
security. A revised DSD is expected to be released to all DDSs by September 30, 2003.




Summary of Single Audit Oversight Activities (A-07-03-13059)                          F-2
                                                                       Appendix G
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Mark Bailey, Director, Kansas City (816) 936-5591

       Shannon Agee, Deputy Director, Kansas City (816) 936-5590

Acknowledgments

       Wanda Craig, Auditor

       Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-03-13059.




Summary of Single Audit Oversight Activities (A-07-03-13059)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
